U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

October 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

David Tachay Hear v. United States of America,
S.Ct. No. 20-5742

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 8,
2020, and placed on the docket on September 17, 2020. The government’s response is due on
October 19, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 18, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5742
HEAR, DAVID TACHAY
USA

RAPHAEL M. SCHEETZ
425 2ND STREET, SE
SUITE 1010
CEDAR RAPIDS, IA 52401
319-378-7416

